Los Angeles City Hall
200 N. Spring Street, 14th Floor
Los Angeles, CA 90012

(213) 978-1868 Tel
(213) 978-2286 Fax
danielle.goldstein@lacity.org
www.lacityattorney.org

MICHAEL N. FEUER
City Attorney

May 10, 2021
Via Electronic Filing and U.S. Mail
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Cal Cartage Transp. Express, LLC v. California, No. 20-1453

Dear Mr. Harris:
Respondent the People of the State of California have received the Court’s request for a
response to the petition for a writ of certiorari in the above-referenced case. The response is
currently due June 3, 2021. Pursuant to Rule 30.4 of the Rules of the Supreme Court of the United
States, Respondent respectfully requests a 30-day extension, making Respondent’s deadline to file a
response to the petition July 6, 2021.
This request is not made for the purposes of delay, but to ensure that my office has sufficient
time to respond to the petition. I will have principal responsibility for preparing the brief in
opposition to the petition. I have upcoming deadlines in other matters that will prevent me from
having adequate time to devote to the response absent an extension, including a dispositive-motion
hearing on May 18, 2021. In addition, the petition raises several important new issues that will
require significant research and analysis, including issues of this Court’s jurisdiction and the law of
other states and courts. A 30-day extension will allow my office to devote adequate time to the
issues raised in the petition and prepare a response that is most helpful to the Court.
Accordingly, Respondent respectfully requests that the time for filing a response to the
petition for writ of certiorari be extended by 30 days. Petitioners do not oppose this request.
Sincerely,
Danielle L. Goldstein
Deputy City Attorney

